                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMQWrhNDLTM

Case Number: A01070024                                                                      Page 1 of 1



             Our office received a complaint concerning the administration of NSF's Survey of Earned
     Doctorates (SED) by an institution.' According to the complainant2 the institution mandated
     completion of the SED despite clear instructions on the front cover of the SED which state that
     "[y]our response is voluntary and failure to provide some or all of the requested information will not
     in any way adversely affect YOU."Although the complainant submitted a partially completed SED,
     scheduled and completed her dissertation, our office decided to address this issue with the institution
     along with NSF management.

             In an interview with the NSF official3 responsible for the administration of the SED, our
     office learned that completion of the SED by doctoral thesis candidates is not mandatory, and SRS
     employees and NSF contractors do not state or imply as much to institutions. However, as the SED
     receives a 91% return rate, the NSF official suspects that some institutions mandate completion of
     the survey.

               In an interview with an institution official4 our office learned that forms mandating
      completion of the SED may have been developed before the adoption of any human subjects
      protocol, and apparently never changed because no graduate student ever formally complained about
      the policy. After receiving a letter from our office, and consulting with their legal office, the
      institution eliminated mandatory completion of the SED as a prerequisite for completion of a thesis
      defense. This change is reflected in all paper and electronic forms.

              As the complainant completed a doctoral dissertation with a partially completed SED form,
      and the institution changed their SED policy in light of our correspondence, there are no remaining
      issues to address.

                Accordingly, this case is closed.




      ' [redacted]
          [redacted]
          [redacted]
      4
          [redacted]

                                                                -    -


                            Agent                    Attorney             Supervisor                 AIGI

  Sign 1 date
